 

LAW OFFICE OF CHARLES SEVILLA

ATTORNEY AT LAW

seuede ope Tae ees ea ; (5, 402 West BRoapway, SUITE 720 :
CHARLES M, SEVILLA SAN DIEGO, CALIFORNIA 92101 (619) 232-2222
WWW.CHARLESSEVILLA.COM EMAIL CHUCK@CHARLESSEVILLA.COM FAX 644 4199

September 15, 2021

Clerk of Court _ :
United States Supreme Court.’

Re: Wilson v. California, No. 20-1737
To the Clerk of the Court:

I wish to inform the Court of a related case that is relevant to the petition for
a writ of certiorari currently scheduled for conference on September 27, 2021. See
Wilson v. California, No. 20-1737. ,

Petitioner, Mr. Wilson, was prosecuted in California state court and federally
in the Southern District of California. Both prosecutions arose from the exact same
search and central evidence against petitionér in both cases was derivéd from that
search.

Petitioner brought similar motions to suppress in both proceedings. The
California superior court and the federal district court denied the motions. Petitioner
was then convicted in both cases and filed appeals to the California Court of Appeal
and the Ninth Circuit, respectively. The appeals challenged the denials of the
motions to suppress on nearly identical grounds.

The Ninth Circuit held argument first, on November 15,2019. Although nearly
two years have passed, a decision on the merits has not been issued. Counsel in that
case recently filed a notice of delay with the Ninth Circuit (attached).

While the federal appeal was pending in the Ninth Circuit, the California Court
of Appeal issued a published decision affirming the denial of suppression and the
California Supreme Court denied review. People v. Wilson (2020) 56 Cal.App.Sth
128. The current petition for a writ of certiorari stems from those decisions.

RECEIVED
SEP 22 2021

OFFICE OF THE CLE}
SUPREME COURT, uss

 
    

    
I believe it would serve the interests of justice to stay further consideration of
the petition for a writ of certiorari, until the Ninth Circuit rules. If the Ninth Circuit
reverses, it would create a split on a very important Fourth Amendment issue, within
the same case, and also within the Circuits. See, e.g., United States v. Miller, 982
F.3d 412 (6th Cir. 2020). Moreover, if this Court denies the petition, and the Ninth
Circuit later reversed, Mr. Wilson may be left without recourse on the state side,
because Fourth Amendment claims typically cannot be raised under 28 U.S.C. §
2254, See Stone v. Powell, 428 U.S. 465, 482 (1976).

Accordingly, a stay is appropriate.
We thank the Court for its consideration.

Respectfully submitted,

Y furl. aA_| Clk

‘Charles M. Sevilla
Counsel for Petitioner Wilson

cc: Rob Bonta, Attorney General
State of California, Respondent
Case: 18-50440, 08/24/2021, ID: 12209944, DktEntry: 59, Page 1 of 1

WARREN & BURSTEIN
ATTORNEYS aT LAW

‘The Koll Center Devin Burstein

501 West Broadway Partner

Suite 240 .

San Diego, CA 92101 (619) 234-4433

wwarrenburstein.com db@wabulaw.com
August 24, 2021

Molly Dwyer, Clerk of Court

U.S. Court of Appeals for the Ninth Circuit
P.O. Box 193939

San Francisco, CA 94119-3939

Re; Notice under Ninth Circuit Rule 25-2(3)
United States v. Wilson, Case No. 18-50440
Argued: November 15, 2019 in Pasadena
Panel: Hon. Berzon, Hon. Watford, Hon. Whaley

Dear Ms, Dwyer:

On November 15, 2019, the Court took this case under submission. A
decision on the merits has not been issued.

I write because, on September 27, 2021, the United States Supreme Court will
conference Mr. Wilson’s petition for a writ of certiorari to the California Supreme
Court from his state court conviction. See Wilson v. California, No. 20-1737.

As this Court is aware, both the federal and state criminal prosecutions arose
from the same search. That search is the subject of Mr. Wilson’s petition for a writ
of certiorari. I believe a ruling from this Court will be material to the Supreme
Court’s consideration. To that end, if the Supreme Court denies the petition,
Mr. Wilson’s state conviction will of course be final. And Fourth Amendment
claims typically cannot be raised under 28 U.S.C. § 2254. See Stone v. Powell, 428
U.S. 465, 482 (1976).

Respectfully submitted,
5/ Devin Burstein
Devin J. Burstein
